FILED: June 1, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6911
(3:19-cv-00070-FDW)

HARRY SHAROD JAMES
Petitioner - Appellant
v.

TOM BRICKHOUSE; STATE OF NORTH CAROLINA
Respondents - Appellees

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

A^efV^X A

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6911
HARRY SHAROD JAMES,
Petitioner - Appellant,
v.
TOM BRICKHOUSE; STATE OF NORTH CAROLINA,
Respondents - Appellees.

Appeal from the United States District Court for the Western District of North Carolina, at
Charlotte. Frank D. Whitney, District Judge. (3:19-cv-00070-FDW)
Submitted: March 19, 2021
Before KEENAN, FLOYD, and RUSHING, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Harry Sharod James, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Decided: June 1, 2021

PER CURIAM:
Harry Sharod James seeks to appeal the district court’s order denying relief on his
28 U.S.C. § 2254 petition. The order is not appealable unless a circuit justice or judge
issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(A). A certificate of
appealability will not issue absent “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). When the district court denies relief on the merits, a
prisoner satisfies this standard by demonstrating that reasonable jurists could find the
district court’s assessment of the constitutional claims debatable or wrong. See Buck v.
Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on procedural
grounds, the prisoner must demonstrate both that the dispositive procedural ruling is
debatable and that the petition states a debatable claim of the denial of a constitutional
right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v. McDaniel, 529
U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that James has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
DOCKET NO. 3:19-cv- 00070-FDW
HARRY SHAROD JAMES,

)
)
)
)
)
)

Petitioner,
vs.

ORDER

TOM BRICKHOUSE and STATE OF NORTH )
CAROLINA,
)
)
)
)

Respondents.

THIS MATTER is before the Court on Respondents’ Motion for Summary Judgment (Doc.
No. 7) moving this Court to grant summary judgment on Petitioner’s application for Writ of
Habeas Corpus (Doc. No. 1) pursuant to 28 U.S.C. § 2254 and Rule 56 of the Federal Rules of
Civil Procedure. The Court advised Petitioner of his right to respond and the burden of proof he
carried in so doing in a Roseboro notice (Doc. No. 9) and Petitioner timely filed a Response in
Opposition to Respondent’s Motion (Doc. No. 10). Accordingly, the Motion is ripe for review.
For the reasons stated below, Respondents’ Motion for Summary Judgment (Doc. No. 7) is
GRANTED and Petitioner’s Petition for Writ of Habeas Corpus (Doc. No. 1) is DENIED.

I.

BACKGROUND

Petitioner, Harry Sharod James, is a prisoner of the State of North Carolina currently residing
at Hyde Correctional Center in Fairfield, North Carolina. On June 10,2010, Petitioner was found
guilty of first-degree murder on the theories of malice, premeditation and deliberation, and under
the felony murder rule. (See Doc. No. 8-4, p. 3). Petitioner was also convicted of robbery with a
dangerous weapon. Id. Petitioner was sentenced to life imprisonment without parole for the murder
l

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page lot 16

conviction and to a concurrent sentence of sixty-four to eighty-six months imprisonment for his
conviction of robbery with a dangerous weapon. Id.
Petitioner timely appealed, and on October 18, 2011, the North Carolina Court of Appeals
(NCCOA) filed an unpublished opinion and found no error. See State v. James. 716 S.E.2d 876
(N.C. Ct. App. 2011), review allowed and remanded. 366 N.C. 214, 748 S.E.2d 527 (2012).
Petitioner then filed a Petition for Discretionary Review (PDR) in the North Carolina Supreme
Court (NCSC). During this time, N.C.G.S. § 15A-1340.I9A et seq. was enacted following the
United States Supreme Court’s holding in Miller v. Alabama, which prohibited “a sentencing
scheme that mandates life in prison without possibility of parole for juvenile offenders.” Miller v.
Alabama. 567 U.S. 460, 479, 132 S. Ct. 2455, 2469, 183 L. Ed. 2d 407 (2012). On August 23,
2012, the NCSC allowed Petitioner’s PDR for remand to the NCCOA and to the trial court for
resentencing. See State v. James. 366 N.C. 214, 748 S.E.2d 527 (2012). At the conclusion of
Petitioner’s resentencing hearing on December 12,2014, Petitioner was resentenced to life without

parole.
Petitioner gave timely notice of appeal. The NCCOA affirmed the constitutionality of
N.C.G.S. § 15A-1340.19A et seq. but remanded the case because “the trial court did not issue
sufficient findings of fact on the absence or presence of mitigate factors as required by N.C. Gen.
Stat. § 15A-l340.l9C(a).” State v. James. 247 N.C. App. 350, 367, 786 S.E.2d 73, 84 (2016),
review allowed, writ allowed, appeal dismissed. 369 N.C. 537, 796 S.E.2d 789 (2017), and afFd
as modified and remanded. 371 N.C. 77, 813 S.E.2d 195 (2018).
Petitioner filed another PDR in the NCSC on June 3,2016, challenging the constitutionality of
N.C.G.S. § 15A-1340.19A et seq. The State filed a PDR requesting review of the NCCOA finding

2

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 2 of 16

A^AcVt'lt

that N.C.G.S. §§ 15A-1340.19A to 15A-1340.19D contained a presumption in favor of a life
sentence without parole. The NCSC determined that N.C.G.S. §§ 15A-1340.19Ato 15A-I340.19D
is constitutional, but the Court of Appeals incorrectly determined that it created a presumption in
favor of a sentence of life without parole. State v. James. 371 N.C. 77, 99, 813 S.E.2d 195, 211
(2018). The NCSC remanded the case to the Court of Appeals for remand to the Superior Court,
Mecklenburg County for sentencing. Id.
On June 25,2018, Petitioner filed a Motion for Appropriate Relief (MAR) seeking relief from
his current conviction. (Doc. No. 8-14). On September 25, 2018, the MAR was denied. (Doc. No.
8). Petitioner filed the instant Petition for Writ of Habeas Corpus on February 11,2019. (Doc. No.
1). Respondents filed their Motion for Summary Judgment on April 1, 2019 (Doc. No. 7)
supported by a Memorandum (Doc. No. 8). Following the Court’s issuance of a Roseboro notice,
Petitioner filed his Response (Doc. No. 10) on April 17,2019.
II.

STANDARD OF REVIEW

Summary judgment is appropriate where “the pleadings, the discovery and disclosure materials
on file, and any affidavits show that there is no genuine issue as to any material fact and that the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(c)(2); See also United States
v. Lee. 943 F.2d 366, 368 (4th Cir. 1991). Thus, to withstand a motion for summary judgment,
the non-moving party must proffer competent evidence sufficient to reveal the existence of a
genuine issue of material fact. Fed. R. Civ. P. 56(e)(2); Anderson v. Liberty Lobby, Inc.. 477 U.S.
242, 24647 (1986).
In determining whether a “genuine issue of material fact” exists, any permissible inferences to
be drawn from the underlying facts must be viewed in the light most favorable to the non-moving
3

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 3 of 16

party. Matsushita Elec. Indus. Co.. Ltd, v. Zenith Radio Corp.. 475 U.S. 574, 587-88 (1986);
Erwin v. United States. 591 F.3d 313, 327 (4th Cir. 2008). However, “the mere existence of some
alleged factual dispute between the parties will not defeat an otherwise properly supported motion
for summary judgment.” Anderson. 477 U.S. at 247-48. Rather, “only disputes over facts that
might affect the outcome of the suit under the governing law will properly preclude summary
judgment.” Thompson v. Carlisle. 2010 WL 382044, at *1 (4th Cir. Feb. 3, 2010). Where the
record taken as a whole could not lead a rational trier of fact to find for the non-moving party,
disposition by summary judgment is appropriate. Anderson. 477 U.S. at 248-49.
In addition to the motion for summary judgment standard set forth above, this Court must also
consider the petition for writ of habeas corpus under the requirements set forth in the Antiterrorism
and Effective Death Penalty Act (AEDPA), 28 U.S.C. § 2254(d). It is well settled that § 2254 sets
a particularly high bar a person in custody requesting habeas relief must overcome. See Metrish
v. Lancaster. 569 U.S. 351 (20131: Harrington v. Richter. 562 U.S. 86, 103 (2011); Sigmon y.
Stirling. No. 18-7, —F.3d—-, 2020 WL 1856396, at *6 (4th Cir. Apr. 14,2020); Tice v. Johnson,
647 F.3d 87, 103 (4th Cir. 2011); Cummings v. Polk. 475 F.3d 230, 238 (4th Cir. 2007). The
highly deferential standard under § 2254 “ensures ‘state proceedings are the central process, not
just a preliminary step for a later federal habeas proceeding.’” Sigmon. 2020 WL 1856396, at *6
(quoting Harrington v. Richter. 562 U.S. 86, 103 (2011)). Accordingly, a court may grant habeas
relief on claims adjudicated on their merits in State court only if the adjudication of the claim
resulted in a decision that was (I) contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or (2) based on

4

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 4 of 16

an unreasonable determination of facts in light of the evidence presented in the State court
proceeding. See Id.: 28 U.S.C. § 2254(d).
III.

ANALYSIS

Pro se pleadings are held to a less stringent standard than those drafted by attorneys. Erickson
v. Pardus. 551 U.S. 89, 94 (2007); King v. Rubenstein. 825 F.3d 206, 214 (4th Cir. 2016).
However, it is well established that § 2254 maintains a highly deferential standard to the state
courts’ decisions, See Metrish v. Lancaster. 569 U.S. 351 (2013); Harrington, 562 U.S. at 103;
Sigmon. 2020 WL 1856396, at *6; Tice v. Johnson. 647 F.3d 87, 103 (4th Cir. 2011); Cummings,
475 F.3d at 238. A court may grant habeas relief on claims adjudicated on their merits in state
court only if the adjudication of the claim resulted in a decision that was (1) contrary to, or involved
an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or (2) based on an unreasonable determination of facts in light of the
evidence presented in the State court proceeding. See Sigmon, 2020 WL 1856396, at *6; 28 U.S.C.
§ 2254(d).
A. Robbery with a Dangerous Weapon
Petitioner argues that his indictment for robbery with a dangerous weapon was defective
because the indictment failed to state the value of the stolen goods, and therefore he lacked proper
notice. (Doc. No. 1). Petitioner alleges this notice is required by North Carolina and Federal law;
however, he does not indicate any other North Carolina or Federal cases where courts have held
that the value of the stolen goods is a required element of robbery with a dangerous weapon. (Doc.
No. 1).

5

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 5 of 16

2)

Petitioner argues that the value of the stolen goods is an element of the crime because (1) it is
a fact essential to the punishment of the crime and (2) punishment varies with value. (Doc. No.
10). However, under North Carolina law, the elements for robbery with a dangerous weapon are
“(1) the unlawful taking or an attempt to take personal property from the person or in the presence
of another (2) by use or threatened use of a firearm or other dangerous weapon (3) whereby the
life of a person is endangered or threatened.” State v. Small. 328 N.C. 175, 181, 400 S.E.2d 413,
416 (1991); See N.C. Gen. Stat. Ann. § 14-87; see also State v. McLean. 251 N.C. App. 850, 855,
796 S.E.2d 804, 808 (2017); State v. Hill. 365 N.C. 273, 275, 715 S.E.2d 841, 843 (2011).
Accordingly, the value of the goods is not an essential element of the crime, and “it is not necessary
or material to describe accurately or prove the particular identity or value of the property taken,
further than to show it was the property of the person assaulted or in his care, and had a value.”
State v. Waddell. 279 N.C. 442, 445, 183 S.E.2d 644, 646 (1971) (internal citations omitted).
Moreover, the NCSC has upheld the use of the short-form indictment for robbery with a dangerous
weapon so long as it “contain[s] a description of the property sufficient, at least, to show that such
property is the subject of rohberv.” State v. Guffey. 265 N.C. 331.333. 144 S.E.2d 14, 16(1965).
In the present case, the indictment identified a debit card and a 1999 Honda Civic as the stolen
items. (Doc. No. 8-2). The jury found these items were of value and were taken in the presence of
the victim. (Doc. No. 8-2). This claim is without merit on federal habeas review because in North
Carolina (1) the value of the stolen goods is not an essential element of the crime, and (2) the
indictment sufficiently described goods of value that were taken in the presence of the victim.
Most importantly for this Court, Petitioner’s claim is procedurally barred from federal habeas
corpus review. Petitioner waived his right to assert a claim for defective indictment for his robbery
6

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 6 of 16

A^oA’oiib

with a dangerous weapon indictment because he was able to raise this claim as part of his appeal
but did not raise this claim until his MAR. (Doc. No. 8-14). See N.C.G.S. § 15A-1419(a)(3) (2017).
Superior Court Judge Carla N. Archie appropriately applied North Carolina law by denying
Petitioner’s claim pursuant to N.C.G.S. § 15A-1419(a)(3)-(b) (2017) and determined that,
“[Petitioner] ha[d] not shown good cause and actual prejudice nor a fundamental miscarriage of
justice that would overcome the procedural bar.” (Doc. No. 8-14). This Court’s habeas review
involves broad deference to Judge Archie’s decision on matters of state law, and this claim is
procedurally barred from federal habeas review. See 28 U.S.C. § 2554(d); Harrington. 562 U.S. at
103; Harris v. Reed. 489 U.S. 255, 263, 109 S. Ct. 1038, 1043, 103 L. Ed. 2d 308 (1989);
Wainwricht v. Svkes. 433 U.S. 72 (1977).
B. Felony Murder Rule
Petitioner’s second ground for relief is that the indictment was defective because it did not put
him on proper notice of what type of homicide he should defend against. (Doc. No. 10). Petitioner
asserts N.C.G.S. 14-17 describes “multiple, distinct, forms of homicide” and “[t]here is no way for
petitioner to determine the type of homicide he must defend against.” (Doc. No. 10). Petitioner
claims the indictment is missing an allegation of every fact which is essential for the punishment,
and therefore he was not put on proper notice. (Doc. No. 10).
The Court turns to the thorough analysis of the NCCOA. See Hartman v. Lee. 283 F.3d 190,
193 (4th Cir. 2002). The NCCOA denied the petition on the merits because the “[North Carolina]
Supreme Court has previously held that a short-form indictment does not violate a defendant’s
constitutional rights.” James. 716 S.E.2d at 876. Specifically, it is well established in North

7

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 7 of 16

Carolina that “premeditation and deliberation do not need to be separately alleged in the shortform indictment.” Id. (citing State v. Braxton. 352 N.C. 158,175,531 S.E.2d 428,437-38 (2000)).
Further, there is no Due Process violation because “the Constitution does not require the
method by which the crime was committed to be alleged in the indictment.” Hartman. 283 F.3d at
195 n.3. The Fourth Circuit has upheld the constitutionality of North Carolina’s short-form
indictment when the charge was based on a theory of premeditation or felony murder because
“[prosecution on these theories is sufficiently commonplace that a reasonable defendant charged
with common law murder would foresee that he might have to defend against them.” Stroud v.
Polk. 466 F.3d 291, 296-97 (4th Cir. 2006); Hartman. 283 F.3d at 195. Therefore, this Court on
federal habeas review defers to the state courts’ reasoning and application of state law.
For the reasons set forth above, there is no genuine issue of material fact and Respondents
are entitled to summary judgement as a matter of law. With respect to the habeas review
requirements as set forth in § 2254, (1) Petitioner has failed to point to and the Court finds no
clearly established federal law, as determined by the Supreme Court, which contradicts with the
NCCOA ruling, and (2) the Court finds the appellate court’s decision was a reasonable
determination of facts in light of the evidence presented in the State court proceeding. Therefore,
Petitioner’s claim of inadequate notice provided by his indictment fails to satisfy the requirements
codified in § 2254.
C. Inadmissible Evidence
Petitioner’s third assertion is that the State presented inadmissible evidence at trial because the
State presented a Lab Report (Exhibit no. 77) on July 12,2007 even though the Crime Laboratory
STR Results Worksheet (Exhibit no. 80) was completed fourteen days later on July 26, 2007.
8

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 8 of 16

Petitioner argues the Lab Report was completed without confirming the results of the lab and is
therefore inadmissible. (Doc. No. 1).
Petitioner’s claim is procedurally barred from federal habeas corpus review. Petitioner waived
his right to assert a claim for inadmissible evidence because he was able to raise this claim on
direct appeal but did not raise this claim until his MAR. (Doc. No. 8-14). See N.C.G.S. § ISA1419(a)(3) (2017); United States v. Mikalaiunas. 186 F.3d 490,492-93 (4th Cir. 1999) (“In order
to collaterally attack a conviction or sentence based upon errors that could have been but were not
pursued on direct appeal, the movant must show cause and actual prejudice resulting from the
errors of which he complains or he must demonstrate that a miscarriage of justice would result
from the refiisal of the court to entertain the collateral attack.”). Moreover, to excuse procedural
default on a petitioner’s claim “the existence of cause ... must turn on something external to the
defense.” Id. at 493. Petitioner does not claim anything external “such as the novelty of the claim
or a denial of effective assistance of counsel.” Id. Petitioner also does not demonstrate a
miscarriage of justice would result because he does not “show actual innocence by clear and
convincing evidence.” Id. (citing Murray v. Carrier. 477 U.S. 478,488,106 S.Ct. 2639,91 L.Ed.2d
397 (1986)). Judge Archie appropriately applied North Carolina law by denying Petitioner’s claim
pursuant to N.C.G.S. § 15A-l 419(a)(3)-(b) (2017) and determined that “[Petitioner] ha[d] not
shown good cause and actual prejudice nor a fundamental miscarriage of justice that would
overcome the procedural bar.” (Doc. No. 8-14). This Court defers in its habeas review to Judge
Archie’s decision, and therefore, this claim is procedurally barred from federal habeas review. See
28 U.S.C. § 2554(d); Harrington. 562 U.S. at 103; Reed. 489 U.S. at 263, 109 S. Ct. at 1043, 103
L. Ed. 2d 308; Wainwright. 433 U.S. 72.
9

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 9 of 16

Moreover, this claim is without merit in this Court on federal habeas review. The admission or
exclusion of evidence in a state criminal trial is non-cognizable on federal habeas review unless it
violates a specific constitutional right or is so egregious as to render the entire trial fundamentally
unfair. See Estelle v. McGuire. 502 U.S. 62,67-8 (1991); Spencer v. Murray. 5 F.3d 758,762 (4th
Cir. 1993), cert, denied. 510 U.S. 1171 (1994). At trial, Petitioner had a full and fair opportunity
to confront the Reporter who produced the report; nonetheless, Petitioner’s counsel did not
question the fourteen day difference during his cross examination of the Reporter. (Doc. No. 817). Petitioner has not sufficiently claimed a violation of his federal constitutional rights, and the
admission of this evidence did not render the entire trial fundamentally unfair. See Estelle. 502
U.S. at 67-8; Spencer v. Murray. 5 F.3d 758, 762 (4th Cir. 1993), cert, denied, 510 U.S. 1171
(1994).
D. Ex Post Facto Violations
Petitioner lists his fourth ground for relief as an ex post facto violation. (Doc. No. 1).
Specifically, Petitioner argues that his re-sentencing violates the ex post facto clause because “the
state arbitrarily subjected petitioner to a newly created sentencing scheme” and “[a] heavier
penalty shall not be imposed than the one that was applicable at the time of the penal offence was
committed.” (Doc. No. 10). Petitioner seems to argue that he was not sentenced to the laws
applicable in 2006 (the year when he committed the offense) and instead was sentenced according
to laws later enacted. (Doc. No. 1). He claims this is an ex post facto violation and warrants federal
habeas review. (Doc. No. I).

10

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 10 of 16

For a violation of the ex post facto clause, the Petitioner must show (1) the law applied to
events before its creation, and (2) the law disadvantages him. See Collins v. Youngblood. 497
U.S. 37,42(1990).
Contrary to Petitioner’s claim, he was not subjected to an unconstitutional sentence ex post
facto because he was sentenced and re-sentenced as a juvenile offender, and the NCSC
appropriately mandated the sentencing court consider mitigating factors in accordance with Miller
and N.C.G.S. § 15A-1340.19 et seq. See James. 371 N.C. at 99, 813 S.E.2d at 211. The NCSC
addressed this claim on Petitioner’s second appeal. See James, 371 N.C. at 99,813 S.E.2d at 211.
Petitioner was first sentenced to life without parole because at the time he was convicted in 2010,
North Carolina mandated that the sentence for a juvenile who was convicted of first-degree murder
was life without parole. l± at 79, 198: See N.C.G.S. 14-17 (2009). However, the United States

Supreme Court decided Miller v. Alabama in 2012, which prohibited juveniles from receiving a
mandatory life sentence without parole unless there is a sentencing hearing to consider mitigating
factors. Miller. 567 U.S. at 489,132 S. Ct. at 2475. Shortly thereafter, N.C.G.S. § 15A-1340.19 et
seq. was enacted to comply with Miller. See N.C.G.S. § 15A-1340.19etseq.
On appeal, Petitioner argued that since N.C.G.S. § 15A-1340.19 et seq. was enacted after he
committed the murder, its application to him violates the ex post facto clause. (Doc. No. 8). The
NCSC determined there was no ex post facto violation because the Petitioner was not
disadvantaged by the retroactive sentencing and in fact could have received a lesser sentence as a
result of Miller. James. 371 N.C. at 99, 813 S.E.2d at 211 (“[Gjiven that N.C.G.S. §§ 15A1340.19A to 15A-I340.19D make a reduced sentence available to defendant and specify
procedures that a sentencing judge is required to use in making the sentencing decision, we believe
11

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 11 of 16

that defendant's challenge to the validity of the relevant statutory provisions as an impermissible
ex post facto law is without merit.”).
The Court again defers on federal habeas review to the NCSC’s well-reasoned finding that
“N.C. Gen. Stat. § 15A-1340.I9A et seq. does not impose a more severe punishment than that
originally mandated in N.C.G.S. § 14-17, but instead provides sentencing guidelines that comply
with the United States Supreme Court’s decision in Miller.” James. 716 S.E.2d at 876. See
Harrington. 562 U.S. at 103; 28 U.S.C. § 2554(d). Given the deferential standard of review
contained in 28 U.S.C. § 2554(d) and (e), the judgment of the NCSC is presumed to be upheld by
a federal habeas court, and accordingly this Court declines to grant federal habeas relief on
Petitioner’s ex post facto claim.
E. Dangerous Weapon
Petitioner’s fifth ground for relief is that 4ithe dangerous weapon that petitioner was indicted
for does not meet the standard for first-degree murder, or felony-murder pursuant to N.C.G.S. 1417(a)” because “Petitioner was indicted for a dangerous weapon, not deadly weapon.” (Doc. No.
I). Petitioner argues that the indictment lacks the essential elements of “force and arms” and
because of this, he was unable to prepare an effective defense. (Doc. No. 10).
The NCSC has defined a deadly weapon as “any article, instrument or substance which is likely
to produce death or great bodily harm.” State v. Sturdivant. 304 N.C. 293, 301, 283 S.E.2d 719,
725 (1981). Specifically, the NCSC notes that “a hunting knife, a kitchen knife and a steak knife
have been denominated deadly weapons per se.” Id. Therefore, the kitchen knife used in
Petitioner’s case is “per se” a deadly weapon. See id.

12

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 12 of 16

Additionally, Petitioner waived his right to assert a claim for a defective indictment because
he was able to raise this claim on direct appeal but did not raise this claim until his MAR, where
it was procedurally barred. (Doc. No. 8). Judge Archie appropriately applied North Carolina law
by denying Petitioner’s claim pursuant to N.C.G.S. § 15A-1419(a)(3)-(b) (2017) and determined
that, “[Petitioner] ha[d] not shown good cause and actual prejudice nor a fundamental miscarriage
ofjustice that would overcome the procedural bar.” (Doc. No. 8-14).
Further, this claim is procedurally barred from federal habeas corpus review. To attack a claim
that was procedurally barred in state court because it was not brought on direct appeal, Petitioner
“must show cause and actual prejudice resulting from the errors of which he complains or he must
demonstrate that a miscarriage ofjustice would result from the refusal of the court to entertain the
collateral attack.” Mikalaiunas. 186 F.3d at 492-93. Moreover, to excuse a procedural default, the
claim “must turn on something external to the defense.” ]d. at 493. Petitioner does not claim
anything external “such as the novelty of the claim or a denial of effective assistance of counsel.”
Id. Petitioner also does not demonstrate that a miscarriage ofjustice would result because he does
not “show actual innocence by clear and convincing evidence.” Id (citing Murray v. Carrier, 477
U.S. 478,488, 106 S.Ct. 2639, 91 L.Ed.2d 397 (1986)). This Court is once again inclined to defer
to Judge Archie’s decision on federal habeas review, and this claim is procedurally barred from
federal habeas review. See 28 U.S.C. § 2554(d); Harrington. 562 U.S. at 103; Wainwright, 433
U.S. at 72.
F. Double Jeopardy
Petitioner’s final ground for relief is that he was subjected to double jeopardy. (Doc. No. I).
Pursuant to the Fifth Amendment of the U.S. Constitution, “[n]o person shall be subject for the
13

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 13 of 16

same offense to be put twice in jeopardy of life or limb.” U.S. Const., Amend. V. The Double
Jeopardy clause of the Fifth Amendment has been applied to the states through the Fourteenth
Amendment’s Due Process clause. See Benton v. Maryland. 395 U.S. 784,787 (1969). The Double
Jeopardy clause prohibits “successive prosecutions for the same offense.” Whittlesey v. Conroy,
301 F.3d 213,216-17 (4th Cir.2002) (citingNorth Carolina v. Pearce. 395 U.S. 711, 717 (1969)).
Petitioner argues that he was subjected to double jeopardy because the State used elements
from his indictment for robbery with a dangerous weapon to obtain a felony murder conviction,
and he was convicted of the underlying felony. (Doc. No. 1). Petitioner argues that these
convictions “require different elements to lawfully have personal jurisdiction over [him].” (Doc.
No. 10). The “same elements test” articulated in Blockburger v. United States is the appropriate
measure of determining whether a violation of double jeopardy has occurred. 284 U.S. 299 (1932);
United States v. Dixon. 509 U.S. 688 (1993) (confirming that the same elements test is the correct
method of analysis for double jeopardy claims based on successive prosecutions for the same
offense). The same elements test requires an inquiry into whether “each offense created requires
proof of a different element.” Blockburger. 284 U.S. at 304. If this Blockburger test is answered
affirmatively, then no double jeopardy has occurred.
Petitioner was found guilty of first-degree murder on the theories of premeditation and
deliberation and felony murder. James. 371 N.C. at 94, 813 S.E.2d at 207. First-degree murder
based on the theory of premeditation and deliberation requires different elements than robber)'
with a deadly weapon. Under North Carolina law, to convict a defendant of first-degree murder
based on a theory of premeditation and deliberation, “the State must prove: (1) an unlawful killing;
(2) with malice; (3) with the specific intent to kill formed after some measure of premeditation and
14

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 14 of 16

deliberation.” State v. Peterson. 361 N.C. 587, 595, 652 S.E.2d 216, 223 (2007). The NCCOA
found the trial court made no error in convicting Petitioner of first-degree murder on the basis of
premeditation and deliberation. James. 716 S.E.2d at 876. The elements for robbery with a
dangerous weapon under North Carolina law are “(1) the unlawful taking or an attempt to take
personal property from the person or in the presence of another (2) by use or threatened use of a
firearm or other dangerous weapon (3) whereby the life of a person is endangered or threatened.”
Small. 328 N.C. at 181,400 S.E.2d 41 at 416; See N.C. Gen. Stat. Ann. § 14-87. See also McLean,
251 N.C. App. at 855,796 S.E.2d at 808; Hill, 365 N.C. at 275,715 S.E.2d at 843. Therefore, the
two indictments contained alleged crimes requiring proof of different essential elements than the
other, and thus there was no double jeopardy violation.
Further, Petitioner waived his right to assert a claim for a double jeopardy because he was able
to raise this claim on direct appeal but did not raise this claim until his MAR. (Doc. No. 8-14).
SeeN.C.G.S. 15A-1419(a)(3) (grounds for denial of a MAR include situation in which “[u]pon a
previous appeal the defendant was in a position to adequately raise the ground or issue underlying
the present motion but did not do so”). Thus, this claim is procedurally barred from federal habeas
review and without merit.
IV.

CONCLUSION

IT IS THEREFORE ORDERED that:
1. Respondents’ Motion for Summary Judgment (Doc. No. 7) is GRANTED,
2. Petitioner’s Petition for Writ of Habeas Corpus (Doc. No. I) is DENIED, and
3. Pursuant to Rule 11(a) of the Rules Governing Section 2254 Cases, the Court declines to
issue a certificate of appealability as Petitioner has not made a substantial showing of a
15

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 15 of 16

/V

P?

•» «<

denial of a constitutional right. 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S.
322, 336-38 (2003) (in order to satisfy § 2253(c), a petitioner must demonstrate that
reasonable jurists would find the district court's assessment of the constitutional claims
debatable or wrong); Slack v. McDaniel, 529 U.S. 474, 484 (2000) (holding that when
relief is denied on procedural grounds, a petitioner must establish both that the correctness
of the dispositive procedural ruling is debatable, and that the petition states a debatably
valid claim of the denial of a constitutional right).
IT IS SO ORDERED.
Signed: May 28,2020

Frank D. Whitney
Chief United States District Judge T*

16

Case 3:19-cv-00070-FDW Document 16 Filed 05/28/20 Page 16 of 16

a

TWENTY-SIXTH DISTRICT

No. 514PA11-3

Supreme
STATE OF NORTH CAROLINA
v
HARRY SHAROD JAMES
From N.C. Court of Appeals
( 11-244 15-684 P18-707 )
From Mecklenburg
( 06CRS222499-500 )

ORDER
Upon consideration of the petition filed by Defendant on the 30th of October 2018 in this matter for a writ of
certiorari to review the order of the Superior Court, Mecklenburg County, the following order was entered and is
hereby certified to the Superior Court of that County:
"Dismissed by order of the Court in conference, this the 30th of January 2019."
s/ Earls, J.
For the Court
The following order has been entered on the motion filed on the 30th of October 2018 by Defendant to Proceed
In Forma Pauperis:
"Motion Allowed by order of the Court in conference, this the 30th of January 2019."
s/ Earls, J.
For the Court
The following order has been entered on the motion filed on the 30th of October 2018 by Defendant to Appoint
Counsel:
"Motion Dismissed as moot by order of the Court in conference, this the 30th of January 2019."
s/ Earls, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 5th day of February 2019.

A

&/\ X C

C.
•*

v

*’♦

Amy L. Funderburk
Clerk, Supreme Court of North Carolina

~7iyc.A

M. C. Hacknevp"*""
Assistant ClerK, Supreme Court Of North Carolina

Copy to:
North Carolina Court of Appeals
Ms. Sandra Wallace-Smith, Special Deputy Attorney General, For State of N.C. - (By Email)
Mr. Daniel P. O'Brien, Special Deputy Attorney General, For State of N.C. - (By Email)
Mr. Harry Sharod James, For James, Harry Sharod
Mr. R. Andrew Murray, District Attorney
Hon. Elisa Chinn-Gary, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

\,

f 1967

J^ortlj Carolina Court of Appeals;
Fax: (919) 831-3615
Web: https://www.nccourts.gov

DANIEL M. HORNE JR., Clerk
Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. COAP18-707-1
HARRY SHAROD JAMES

V.
STATE OF NORTH CAROLINA
From Mecklenburg
06CRS222499-500

ORDER
PETITION FOR WRIT OF CERTIORARI TO REVIEW ORDER OF SUPERIOR COURT filed on the
30th of October 2018 was dismissed by order of the North Carolina Supreme Court on the 5th day of
February 2019, and same has been certified to the North Carolina Court of Appeals.
IT IS THEREFORE CERTIFIED to the Clerk of Superior Court, Mecklenburg County, North Carolina
that the North Carolina Supreme Court has dismissed the PETITION FOR WRIT OF CERTIORARI TO
REVIEW ORDER OF SUPERIOR COURT filed by the Defendant in this cause.
WITNESS my hand and official seal this the 6th day of February 2019.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Attorney General, For State of North Carolina
Mr. Harry Sharod James, Pro Se, For James, Harry Sharod

-C'h&iis

Of

f*

STATE OF NORTH CAROLINA

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
06-CRS-222499, -500

COUNTY OF MECKLENBURG

1

ssS8*'

STATE OF NORTH CARG
V.

HARRY SHAROD JAMES,
Defendant.

Fit
i

i

)
$£?) ^ J
)

Vi

IORDER DENYING DEFENDANT’S
liolTION FOR APPROPRIATE RELIEF

O’CLOCK^.
qopKAQRQojjP

i

THIS MATTER came before the undersigned judge, in chambers, upon Defendant’s
Motion for Appropriate Relief (MAR) filed pro se on June 25, 2018, pursuant to N.C.G.S.
§15A-1415 and amended on August 1, 2018. After reviewing the MAR and the record
evidence as required by N.C.G.S. §15A-1420, the Court finds that:
1.

On June 19, 2006, the grand jury returned true bills of indictment charging
Defendant with Murder and Robbery with a Dangerous Weapon that occurred
on May 12, 2006.

2.

Defendant was sixteen years of age on the date of the offenses.

3.

On June 10, 2010, a jury convicted Defendant of First Degree Murder based on
malice, premeditation and deliberation, and the felony murder rule, as well as
Robbery with a Dangerous Weapon. Judge Robert F. Johnson sentenced
Defendant to life in prison without parole and 64-86 months concurrent,
respectively.

4.

Defendant appealed his conviction to the North Carolina Court of Appeals.

5.

On appeal, Defendant, through counsel, alleged that (a) the trial court erred in
denying defendant's motion to dismiss the charge of premeditated and
deliberate first-degree murder; (b) his sentence of life without parole for firstdegree murder was in violation of his state and federal rights; and (c) the
indictment charging him with first-degree murder was defective as it does not
sufficiently allege the essential elements of the crime. State v. James. 216 N.C.
App. 417 (2011).

6.

By opinion filed October 18, 2011, the Court of Appeals found no error.

7.

Defendant subsequently appealed to the North Carolina Supreme Court.

8.

On June 25, 2012, the United States Supreme Court decided the case of Miller
i/. Alabama, 132 S. Ct. 2455 (2012); and on August 23, 2012, the North
Carolina Supreme Court entered an order remanding Defendant’s case to the
North Carolina Court of Appeals for further remand to the trial court for
resentencing consistent with the holding in Miller.

9.

Following a resentencing hearing, Judge Johnson resentenced Defendant, by
order dated December 12, 2014, to life without parole for First Degree Murder.

10.

Defendant appealed his resentencing to the North Carolina Court of Appeals
and, by opinion filed May 3, 2016, the North Carolina Court of Appeals affirmed
the trial court in part and reversed and remanded in part.

11.

Defendant appealed to the North Carolina Supreme Court and, by opinion filed
May 11, 2018, the Supreme Court modified the Court of Appeals in part and
remanded Defendant’s case to the North Carolina Court of Appeals for further
remand to the trial court for resentencing consistent with the holding in Miller.
State v. James. 813 S.E.2d 195 (?01B)

12.

Defendant’s MAR alleges defective indictments, inadmissible evidence entered
at trial, and multiplicitious [sic] and duplicitous indictments

Based on the foregoing findings of fact, the Court concludes as a matter of law that:
1.

The issue of defective indictment was previously raised by Defendant and
decided on appeal.

2.

Defendant was in a position to raise his other MAR claims as part of his appeal
and did not do so.

3.

Defendant’s MAR claims are procedurally barred.

4.

Defendant has not shown good cause and actual prejudice nor a fundamental
miscarriage of justice that would overcome the procedural bar.

Page 2 of 3

THEREFORE, IT IS HEREBY ORDERED, ADJUDGED, AND DECREED that:

1.

Defendant’s MAR is DISMISSED.

2.

The District Attorney’s Office shall schedule Defendant’s case for resentencing
consistent with the Supreme Court opinion filed May 11, 2018.

3.

The Public Defender is appointed to represent Defendant at the resentencing
hearing.

This, the 25th day of September, 2018.

Hon. Carla N. Archie
Resident Superior Court Judge

cc:

Defendant
District Attorney’s Office
Public Defender’s Office

Page 3 of 3

Additional material
from this filing is
available in the
Clerk's Office.

